WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-8193

‘Stanley Price Paulette Riley Irons, et al
(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
Oo lam filing this waiver on behalf of all respondents.

® lonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Paulette Riley Irons, Robin Giarrusso, Donald T. Johnson, Christopher Bruno, Louisiana Office of Disciplinary
‘Counsel, Susan Kalmbach, Louisiana Judiciary Commission, Michelle Beaty

Please check the appropriate box:
© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response

      
 

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Cler! iy Fiyst Street, NE, Washington, D.C. 20543).

Signature:

Date: 6/22/21

(Type or print) Name Jacqueline B. Wilson

© mr. O Ms. © mrs. O Miss
Firm Louisiana Department of Justice
Address 1885 North Third Street
City & State (Baton Rouge, Louisiana Zip (70802
Phone (225) 326-6362 Email wilsonj@ag.louisiana.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Stanley Price
cc:
